<html>
<title> - OVERSIGHT OF THE SMITHSONIAN INSTITUTION: OPPORTUNITIES FOR GROWTH BY HONORING LATINO AMERICANS AND ASIAN PACIFIC AMERICANS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


 OVERSIGHT OF THE SMITHSONIAN INSTITUTION: OPPORTUNITIES FOR GROWTH BY 
         HONORING LATINO AMERICANS AND ASIAN PACIFIC AMERICANS

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 5, 2020

                               __________

      Printed for the use of the Committee on House Administration
      
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available on the Internet:
           https://govinfo.gov/committee/house-administration
                            
                            
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-334 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                           
                            
                            C O N T E N T S

                              ----------                              

                            FEBRUARY 5, 2020

                                                                   Page
Oversight of the Smithsonian Institution: Opportunities for 
  Growth by Honoring Latino Americans and Asian Pacific Americans     1

                           OPENING STATEMENTS

Chairperson Zoe Lofgren..........................................     1
    Prepared statement of Chairperson Lofgren....................     3
Hon. Rodney Davis, Ranking Member................................    30
    Prepared statement of Ranking Member Davis...................    31

                               WITNESSES

Hon. Jose E. Serrano, Fifteenth District of New York.............     6
    Prepared statement by Hon. Serrano...........................     8
Hon. Will Hurd, Twenty-Third District of Texas...................    10
    Prepared statement of Hon. Hurd..............................    12
Hon. Grace Meng, Sixth District of New York......................    15
    Prepared statement of Hon. Meng..............................    17
Mr. Lonnie G. Bunch, III, Secretary, Smithsonian Institution.....    18
    Prepared statement of Mr. Bunch..............................    21
Mr. Henry Munoz, Chair, National Museum of the American Latino 
  Commission.....................................................    44
    Prepared statement of Mr. Munoz..............................    46
Dr. Beth Lew-Williams, Associate Professor of History, Princeton 
  University.....................................................    57
    Prepared statement of Dr. Lew-Williams.......................    59
Ms. Lisa Sasaki, Director, Smithsonian Asian Pacific American 
  Center.........................................................    63
    Prepared statement of Ms. Sasaki.............................    65
Dr. Eric Petersen, Specialist in American National Government, 
  Congressional Research Service.................................    67
    Prepared statement of Dr. Petersen...........................    69

                       SUBMISSIONS FOR THE RECORD

Chairperson Lofgren and Ranking Member Davis to Chairperson 
  McCollum and Ranking Member Joyce, letter......................    24
An Important Story That Must Be Told, The Hill, Article..........    79

 
 OVERSIGHT OF THE SMITHSONIAN INSTITUTION: OPPORTUNITIES FOR GROWTH BY 
         HONORING LATINO AMERICANS AND ASIAN PACIFIC AMERICANS

                              ----------                              


                      WEDNESDAY, FEBRUARY 5, 2020

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:03 a.m., in Room 
1310, Longworth House Office Building, Hon. Zoe Lofgren 
[Chairperson of the Committee] presiding.
    Present: Representatives Lofgren, Raskin, Davis of 
California, Fudge, Aguilar, Davis of Illinois, Walker, and 
Loudermilk.
    Staff Present: Sean Jones, Legislative Clerk; David Tucker, 
Senior Counsel and Parliamentarian; Daniel Taylor, Chief 
Counsel; Khalil Abboud, Deputy Staff Director; Jennifer Daulby, 
Minority Staff Director; Mary Sue Englund, Minority Director of 
Administrative Operations; Tim Monahan, Minority Deputy Staff 
Director; and Carson Steelman, Legislative Correspondent for 
Mr. Walker.
    The Chairperson. The Committee will come to order. I note 
that Mr. Davis will be slightly delayed, but we will recognize 
him for his opening statement when he arrives.
    I would like to say welcome to the Committee on House 
Administration as we focus on opportunities for growth at the 
Smithsonian Institution by honoring Latino Americans and Asian 
Pacific Americans.
    There are two proposals for new Smithsonian museums: H.R. 
2420, a bill to establish the National Museum of the American 
Latino; and H.R. 4132, a bill to establish a commission to 
study the potential creation of a National Museum of Asian 
Pacific American History and Culture. This hearing is intended 
to inform our consideration of those measures as well as other 
matters related to overseeing the Smithsonian.
    And I would like to start by thanking the participants in 
today's hearing for providing us with your expertise. I 
recognize that some witnesses have traveled to Washington from 
places across the country for this hearing, and we are very 
grateful that you are here.
    I would like also to give special recognition to 
Representatives Jose Serrano, Will Hurd, and Grace Meng, 
sponsors of the two bills we are discussing today.
    I am very proud to represent San Jose and Santa Clara 
County in what is a very diverse district. San Jose has the 
largest concentration of Vietnamese Americans in the United 
States, and it is also home to northern California's largest 
Mexican American community. For years, I have seen firsthand 
how these communities are emblematic of the American 
experience, and I am looking forward to hearing from our 
witnesses as to how we can help tell the story of Asian Pacific 
Americans and Latino Americans through potential new 
Smithsonian museums.
    For those who may be unfamiliar with the process by which a 
new Smithsonian museum is created, it typically begins with a 
legislatively created commission tasked with making 
recommendations to the President and Congress as to whether a 
new museum should be established and what the process of 
standing up that museum would look like. H.R. 4132, if enacted, 
would establish such a commission to study the creation of a 
National Museum of Asian Pacific American History and Culture.
    This legislation is primarily referred to the Natural 
Resources Committee, but given its implication for future 
Smithsonian operations, this Committee will exercise its 
jurisdiction in planning carefully for the future growth of the 
Smithsonian.
    The National Museum of the American Latino has already had 
a commission, which has produced a report and issued 
recommendations, and H.R. 2420 is a bill that, if enacted, 
would authorize the establishment of this important museum.
    [The statement of the Chairperson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    As I mentioned earlier, before I turned on the microphone, 
Ranking Member Davis is going to be slightly late, but he will 
give his opening statement when he arrives.
    I would now like to welcome our witnesses. Joining us this 
morning, as I mentioned, is our first panel: Representative 
Jose Serrano, who represents the Bronx in New York's 15th 
Congressional District.
    I think I speak sadly for all of us that this is his final 
term in Congress on behalf of his constituents in the Bronx. 
Over the course of his 15 terms, Jose Serrano has pursued an 
agenda that reflects his core values of equal opportunity and 
fair treatment for all. He is a tireless fighter for civil 
liberties, immigration reform, and many other initiatives that 
benefit the neediest and most vulnerable members of our 
society.
    As a former chairman of the Congressional Hispanic Caucus 
and its current dean, he has been a tireless advocate for the 
National Museum of the American Latino.
    Representative Serrano, I am so glad and grateful that you 
are able to be here with us today.
    And Representative Will Hurd has spent his entire career as 
a public servant, first as an undercover CIA agent and more 
recently as a Member of Congress. Since being elected in 2014, 
Representative Hurd has applied his expertise to his work on 
the Intelligence Committee and has worked to help keep our 
country safe. Representative Hurd is an original cosponsor of 
H.R. 2420. We also will miss him next year, as he has announced 
his retirement.
    We do thank you very much for being here in support of this 
important piece of legislation.
    Representative Grace Meng represents a district in Queens 
just a short drive over the White Stone Bridge from 
Representative Serrano's district in the Bronx. Representative 
Meng is currently serving her fourth term in Congress. She is 
the first and only Asian American Member of Congress from New 
York State, the first female Member of Congress from Queens 
since Geraldine Ferraro, and she has spent her time in Congress 
focusing on helping individuals in public housing and military 
veterans. She is a tireless advocate for children and a co-
founder and co-chair of the Kids' Safety Caucus.
    And we thank you, Congresswoman Meng, for being here.
    At this time, before we hear from the witnesses, I ask 
unanimous consent that all Members have five legislative days 
to revise and extend their remarks and that all written 
statements be made part of the record.
    Without objection, so ordered.
    I will remind our witnesses, we do go by the five-minute 
rule, so please adhere to the lights.
    And we will turn to you, Congressman Serrano, first, for 
your statement.

  STATEMENTS OF THE HON. JOSE E. SERRANO, A REPRESENTATIVE IN 
  CONGRESS FROM THE STATE OF NEW YORK; THE HON. WILL HURD, A 
  REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS; AND THE 
HON. GRACE MENG, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
                            NEW YORK

             STATEMENT OF THE HON. JOSE E. SERRANO

    Mr. Serrano. Thank you. And first let me thank you for 
those kind words. Sixteen years in the State Assembly and 30 in 
Congress, probably enough. I leave as a chairman, I leave in 
the majority--I will leave in the majority. And so, like some 
ballplayers, I should leave on top before it is time to go. But 
I thank you for those words, and I thank you for your work. And 
I am glad to be here with my colleagues.
    Chairperson Lofgren, Ranking Member Davis, and members of 
the Committee, thank you for your invitation to testify on the 
importance of honoring the contributions of Latino and Asian 
Pacific Americans and ensuring their full inclusion within the 
Smithsonian Institution.
    I am proud to join my fellow New Yorker and colleague from 
Queens, Ms. Meng, as well as the Republican co-leader of our 
bill Mr. Hurd of Texas.
    As you know, Latinos have been part of this country since 
its foundation. Today, nearly 60 million Americans, or 18 
percent of our U.S. population, identify as Latino or Hispanic. 
As a proud Puerto Rican, I am one of them. The U.S. Census 
reports that by 2060 this community will reach 111 million 
folks in this country, or nearly 28 percent of our population. 
In addition, Latinos make up a quarter of the Nation's 54 
million K-through-12 students. We are the largest ethnic group 
in the United States and second only to Asian Americans in 
terms of growth.
    Latinos have left an indelible mark on our Nation's history 
and helped shape it in ways that most Americans and even many 
in our own community are unaware. We have served in every war 
since the American Revolution, fighting bravely and paying a 
heavy price on behalf of our Nation. We write award-winning 
Broadway plays and films. We are sports heroes and legends. We 
have been on the front lines of the fight for civil rights. We 
have shaped the music we all dance to, the food we eat, and 
countless other staples of American life.
    But Latino art and history is noticeably absent from 
recognition in many cultural institutions across this Nation, 
including the Smithsonian. To deny the telling of this story 
not only does a disservice to our contributions and sacrifices 
but also renders American history incomplete. There is no doubt 
that without the significant contributions of Latinos the 
country we know today would be much different.
    Last May, on the eighth anniversary of the Latino museum 
commission report to President Obama and the U.S. Congress, 
which laid forth a roadmap for creating a sustainable, world-
class Latino museum, a bipartisan group of my colleagues joined 
me in reintroducing H.R. 2420, the National Museum of the 
American Latino Act, which, with 264--let me repeat that--with 
264 cosponsors in the House, and counting, and 27 in the U.S. 
Senate, we are closer than ever to turning this dream into a 
reality.
    H.R. 2420 was modeled after a successful legislation that 
created other museums. It would authorize establishment of a 
Latino museum and use the commission's report's vision and 
recommendations to get us there. And it will be paid for just 
as other museums have been, with 50 percent of the cost coming 
from private donations and 50 percent from Federal funds.
    Next year, the Molina Family Latino Gallery will open in 
the American History Museum. This is a step in the right 
direction, but no matter how hard we try, hundreds of years of 
history, art, and culture cannot be contained in one 4,500-
square-foot exhibit. We deserve a dedicated museum for our own 
in the heart of Washington, D.C. We need a Latino museum, and 
we need it soon. If you can do it before I leave Congress, I 
would be very, very happy.
    Thank you, Chairperson Lofgren and Members of the 
Committee, for having this important conversation and 
challenging the Smithsonian to be more vibrant, inclusive, and 
welcoming.
    With consideration of these bills, the Committee will 
continue honoring James Smithson's wish that the institution 
which bears his name will be ``an establishment for the 
increase and diffusion of knowledge.'' I am sure he would be 
proud if he were here today.
    Thank you.
    [The statement of Mr. Serrano follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. Thank you very much, Congressman Serrano.
    Congressman Hurd, we would be happy to hear from you.

                STATEMENT OF THE HON. WILL HURD

    Mr. Hurd. Chairperson Lofgren, Mr. Walker, and to my other 
very, very distinguished colleagues, thanks for having me here 
today. As the lead Republican on H.R. 2420, the National Museum 
of American Latino Act, and as a representative of a majority-
Latino district, I am proud to discuss the need for a 
Smithsonian museum of the American Latino right here in our 
Nation's capital.
    The National Mall in Washington, D.C., is our country's 
front yard. It has museums for miles telling our Nation's 
stories, stories of natural history, of air and space, of art, 
of buildings, of the American Indian, and, most recently, of 
African American history and culture. But there is one set of 
stories that is missing, the stories of the largest ethnic 
minority in the United States.
    The U.S. is home to almost 59 million Latinos and Latinas, 
and estimates: As Congressman Serrano said, by 2060, one out of 
every four people in the United States will be of Latino 
heritage.
    This bill would make the first strides towards establishing 
a permanent museum for the American Latino by instituting a 
board of trustees that will be responsible for finding a 
location, developing a long-term plan for construction, and 
advising the Smithsonian Board of Regents.
    Not only does this bill establish a leadership structure to 
make the idea of the museum a reality, but it authorizes a 
public-private partnership that will establish the 50-50 
matching program to fund this project.
    Next year, the Smithsonian is opening within the Museum of 
American History a Latino center, the first gallery space to 
celebrate the experience of American Latinos and Latinas. The 
space will showcase the contributions of the American Latino, 
like how they have served in our Nation's uniform in every war 
since Revolution. But the space will pale in comparison to the 
existing museums, many of which have exhibition space well over 
100,000 square feet.
    In just over four months, the National Museum of African 
American History and Culture hit the 1-million-visitors mark, 
and since its opening, the museum has welcomed more than 6 
million tourists. This is an indication of how successful a 
museum of the American Latino can be. Our Nation's investment 
in displaying these stories that Americans and millions of 
tourists from around the world will want to hear will be more 
than worth it.
    Our bill, as my partner in crime on this has said, has more 
than 260 bipartisan cosponsors in the House, and my colleagues 
Senators Cornyn, Menendez, Rubio, McSally, and Capito are 
leading this bipartisan effort in the Senate.
    This isn't a Republican or Democratic issue; this is an 
American issue. This transcends each of us here today and will 
allow future generations of Americans from sea to shining sea 
to learn from our past, appreciate the progress made today, and 
work together to create a stronger future.
    Growing up in San Antonio, I was exposed to the rich Latino 
culture that is prominent in all aspects of American culture. 
From the music we listen to, the clothes we wear and the food 
we eat, to the gifted minds of our doctors, educators, and 
businesspeople, we see these accomplishments woven into our 
everyday lives and the very fabric of our Nation. I appreciate 
you all giving me the opportunity to do this.
    And I will end with an experience I had about 2 weeks ago. 
I am with a friend at the Native American museum, and as we are 
going through the displays, my friend, who was 30-ish, had 
never heard of the Trail of Tears. But because we were at a 
museum and were able to expose and be exposed to something that 
is so important to our culture, to our history, we had the 
opportunity to have that moment. And we need that opportunity 
when it comes to the impact Latino culture has had and is 
having in the United States.
    So I am glad to be a cosponsor of this. And I would like to 
also get this done before my friend and fellow Member, Mr. 
Serrano, leaves as well.
    Thank you all for the time.
    [The statement of Mr. Hurd follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. Thank you very much.
    And now we will turn to our last witness on this panel, 
Congresswoman Meng.

                STATEMENT OF THE HON. GRACE MENG

    Ms. Meng. Chairperson Lofgren, Ranking Member Davis, and 
distinguished Members of this Committee, thank you for this 
opportunity to discuss my bill, H.R. 4132, the Commission to 
Study the Potential Creation of a National Museum of Asian 
Pacific American History and Culture Act, a bill that I have 
proudly introduced each of the past three Congresses.
    I also want to thank my colleagues Congressman Serrano and 
Congressman Hurd for being here to testify in support of their 
legislation, H.R. 2420, of which I am a proud supporter and 
cosponsor as well. And if you would like to move both of our 
bills before they leave, I would be very happy as well.
    I come before you today to emphasize the need to weave the 
narrative to the Asian Pacific American communities into the 
greater American story. After all, the past shapes who we are, 
just as it also strengthens how we move forward.
    There is no doubt that Asian Pacific Americans are the 
fastest-growing ethnic population in the U.S., and our 
community is becoming an increasingly powerful and visible 
force in all aspects of American life. From entertainment to 
medicine, from academia to entrepreneurship, from social 
justice to innovation, our community has made invaluable 
contributions to every facet of our Nation. But too often our 
community is excluded or forgotten in history--our American 
history.
    As long ago as 1850, men were recruited from the Asia-
Pacific region to the U.S. to work in mines, factories, farms, 
and on the construction of railroads. Since then, APAs have 
immeasurably contributed to the advancement of our country. 
From the Chinese Americans who fought at the Battles of 
Antietam and Gettysburg during the American Civil War to the 
Japanese Americans who comprised the 442nd Regimental Combat 
Team during World War II and who became the most decorated unit 
in the history of the U.S. military; from the Chinese Exclusion 
Act to the Japanese American internment camps; and from the 
first wave of Southeast Asian refugees on our shores to the 
Filipino Americans who helped found the farm-worker labor 
movement, these events have left an indelible mark on our 
American story. Shamefully, too often, these stories are 
starkly missing.
    From these halls of Congress to every American classroom, 
we also cannot forget our APA heroes who fought for human and 
civil rights and social justice with their every breath, 
including Grace Lee Boggs, a human rights activist for seven 
decades; Larry Itliong, the quintessential leader for labor 
rights and justice; Colonel Young Oak Kim, the highly decorated 
U.S. Army combat veteran of World War II and the Korean War; 
Dalip Singh Saund, the first Asian American elected to 
Congress; and Patsy Mink, the first woman of color elected to 
Congress and whose name is synonymous with Title IX.
    Chairperson Lofgren, Ranking Member Davis, museums are 
gateways for Americans and the world to see our country's rich 
history, challenges it overcame, and potential for greatness. 
That is why a commission to study the potential creation of a 
national museum of Asian Pacific American history is the first 
step in elevating the APA experiences. Doing so would ensure 
that Americans of all ethnicities and generations can learn 
about the impact our community has had in our Nation's values, 
traditions, culture, and history. After all, the Asian Pacific 
American story is the American story.
    Thank you again for this opportunity to come before your 
Committee. I ardently hope we can work together to preserve the 
unique histories of all Americans, including Asian Pacific 
Americans, for future generations.
    Thank you.
    [The statement of Ms. Meng follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. Thank you very much.
    As is our practice, we will not subject our colleagues to 
questioning under the five-minute rule, but we would like to 
thank you for the vision that you have shown in working on 
these bills to make sure that the pride we have as Americans 
extends to every element of our beautiful country. And we thank 
you for taking time to be here today.
    We will call up our next panel.
    So we welcome, Secretary Lonnie Bunch. We are so pleased to 
have you here in our chambers again.
    As we know, Secretary Bunch is the 14th Secretary of the 
Smithsonian, and he now joins us for his second appearance 
before the Committee since he assumed the role of Secretary in 
June of last year.
    Though a relatively new Secretary, Mr. Bunch is certainly 
no stranger to the Smithsonian museum. From 2005 until 2019, 
Mr. Bunch served as the founding director of the Smithsonian's 
National Museum of African American History and Culture. 
Secretary Bunch took the idea of an African American History 
museum, he translated it into reality.
    Frankly, it is an amazingly good museum. Since it opened in 
2016, the museum has welcomed more than 5 million visitors and 
compiled the collection of 40,000 objects in the first green 
building on the National Mall.
    Secretary Bunch is also an accomplished author, having 
written on topics such as the American Presidency to museum 
management. His most recent work, ``A Fool's Errand''--I love 
the title--is about his experience creating the African 
American History Museum.
    We are so fortunate to have you as Secretary of the museum 
and as a witness today. And, please, do give us your wisdom in 
about five minutes.

   STATEMENT OF LONNIE G. BUNCH III, SECRETARY, SMITHSONIAN 
                 INSTITUTION, WASHINGTON, D.C.

    Mr. Bunch. All right. Thank you.
    Chairperson Lofgren, Ranking Member Davis, Members of the 
Committee, thank you for the opportunity to testify before the 
Committee again today.
    When I was last before the Committee, we touched only 
briefly on the topic of creating additional museums within the 
Smithsonian, so I am grateful that you have decided to dedicate 
this time to explore the topic in greater depth.
    As the founding director of our most recent addition to the 
Smithsonian, the National Museum of African American History 
and Culture, I am happy to share the insights I gained creating 
a museum that began without a staff, without a building, 
without a collection.
    What the National Museum of African American History and 
Culture has demonstrated is that the experience of any 
community offers a lens to better understand our collective 
national identity. Its stories are the stories for everyone. It 
can teach any visitor something about themselves, about their 
history, and their country. By sharing the experiences of more 
communities, the better we can understand each other and our 
shared history.
    As new museum legislation is debated within Congress, it is 
essential that the Smithsonian not wait to provide its visitors 
with a broader, more inclusive history. We had hoped to be 
joined today by Eduardo Diaz, the director of the Smithsonian 
Latino Center, who was called away on family matters. But I am 
so pleased to be joined today by Lisa Sasaki, who is the 
director of the Smithsonian Asian Pacific American Center. 
Together, we can share how these centers make the Smithsonian 
more effective, more vibrant, and more meaningful by embracing 
an inclusive vision of our history and our culture.
    I know that you share our vision for telling a more 
complete and complex history of our Nation. While my memories 
of opening the National Museum of African American History and 
Culture are vivid, so are my memories of how difficult it was. 
I quickly realized that the opening was still just the 
beginning of a long journey.
    As the head of the Institution of the Smithsonian, we will 
be responsible for any new museums, and it is my obligation to 
ensure that Congress is fully aware what it means to place this 
responsibility on the Smithsonian. Any new museum must meet the 
expectations the public has for a national museum. This means 
appropriate size, programming, and collections. We must 
contemplate the needs of staff, and we must be comfortable in 
crafting an institution that has the right sight. There must 
also be a wonderful location, because these buildings are 
powerful symbols of how we as a Nation value the contributions 
of the people they represent.
    While I know everyone here would like to know how much a 
new museum would cost, we simply don't have enough information 
to provide a precise answer. The costs of construction are tied 
ultimately to the site and the challenges that location may 
present. Given expected construction cost increases and the 
challenges of preferred sites, a comparable new museum will 
likely exceed the cost of building the National Museum of 
African American History and Culture.
    It is so important to note that the costs do not end with 
construction. The annual operating costs of a museum alone are 
significant, but the true costs are also spread throughout the 
Institution. Many functions of the Smithsonian are centralized, 
such as maintenance, security, and a general counsel. We cannot 
let additional museums detract--but, rather, enhance--our 
ability to staff and tell the stories for all Americans.
    Finally, it is important that Congress understands the 
impact that new museums can have on our ability to maintain our 
aging infrastructure. Several of our iconic buildings are 
slated for or are currently undergoing extensive renovation. 
Others are in need. As this Committee is well aware, our 
backlog of maintenance costs has exceeded $1 billion, and many 
of our facilities continue to fall behind.
    I would like to thank you, however, for the bipartisan 
support you have shown in helping us manage this problem and 
supporting a more sustainable path for the Institution. We are 
continuing to look at new ways to assess and address this 
backlog. And Congress must understand that bringing a new 
museum to fruition will increase these challenges--but 
challenges that I think, together, we can overcome.
    When building the National Museum of African American 
History and Culture, I saw Congress as an essential partner. As 
Secretary, I will take the same approach. It is imperative that 
we work collaboratively to ensure we can meet all of our 
challenges, new and old. And I am sure that we can build 
museums worthy not only of the Smithsonian but worthy of the 
communities that the museum represents with the right support 
from Congress.
    I stand ready to answer any questions you have because I am 
excited about the opportunity to discuss the future of what may 
happen at the Smithsonian. Thank you very much.
    [The statement of Mr. Bunch follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. Thank you very much, Secretary Bunch.
    I just wanted to put something in the record. I don't think 
everyone knew. I think you are aware. But Ranking Member Davis 
and I sent a letter to the Appropriations Committee last year 
asking that they fund the deferred maintenance backlog fully 
for the Smithsonian. This has been building over the years. It 
is not because of these proposals. I ask unanimous consent that 
the letter we sent on funding deferred maintenance be made part 
of the record. Without objection, so ordered.
    [The information is as follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis and I had discussed, back a long time ago--I 
think Mr. Davis was on the staff. I was a new Member when Vic 
Fazio decided it was time to get caught up, and that is when we 
did the maintenance and really renovated and saved the Botanic 
Garden; it is when we basically saved the old Library of 
Congress, which was falling apart. And we think it is time to 
do that with the Smithsonian, not to let maintenance deferred 
ultimately cost us more because we have not paid attention.
    We have not given up on this idea. And I want to recruit 
the other Members of the Committee, especially one Member who 
is on the Appropriations Committee, to see if we can't get that 
done. Because, in the end, it is going to cost us more. And 
these beautiful institutions really are in trust for us for the 
future and for the public, and we want to make sure that we are 
doing the right thing.
    Having said that, in a way, ``A Fool's Errand,'' your new 
book--hopefully that will not be the case with these two 
proposals. We are having this hearing because we do hope to 
move forward on these two.
    I was struck by something that you said at the last hearing 
where you were present, something to the effect of, if you 
never start, you never finish. And so I think it is important 
to start. That is not a guarantee that we get to the finish 
line, frankly. This is an authorization. But we will never know 
if we don't start and if we don't try.
    Let me just ask you this, Secretary Bunch. When you take a 
look at the Latino American museum as well as the Asian 
American museum--we have a very diverse Asian American 
community in the United States, a very diverse Latino community 
in the United States--how do you approach that, in making sure 
that, as we are inclusive, we are inclusive in the whole 
community? How would you do that?
    Mr. Bunch. I think it is important to realize that the key 
to success of any Smithsonian Institution museum is 
scholarship, and the scholarship allows us to understand the 
diversity within these communities. It is a challenge to figure 
out how to do that, but it is something that can be easily done 
with good scholars and with good curators.
    I think the most important thing for me, as I think about 
new museums, is to recognize that it is a two-sided coin, that 
on the one hand it is an opportunity to finally tell stories of 
communities, their own diversity, their impact, the challenges 
they face; but I think, to be the kind of Institution we really 
want, there will also have to be the other side of the coin 
that says, here is how you use Latino culture or the story of 
the Asian Pacific Americans to better understand what it means 
to be an American, to recognize that this is a story that 
shapes us all, not just the communities.
    So I think it can be done, but it is a challenge that needs 
good leadership and good scholarship.
    The Chairperson. Let me ask you this. I think back to some 
of the efforts that have been made just in my own little 
community, and I will just mention two examples.
    We have Norm Mineta, who was born in San Jose in what was 
then called and still is the oldest Japantown in the United 
States. A group of elders decided to open a little museum, and 
they did it with artifacts from their own community. And, you 
know, it is small, but it is really quite wonderful. They honor 
the Japanese Americans who walked out of the internment camps, 
volunteering to fight in World War II, and ended up being the 
most decorated unit in the entire history of the military 
service in World War II. And they have artifacts from the 
families of that unit and other things.
    The second museum--I have a large Vietnamese American 
community. Those refugees struggled. They came in little boats, 
fleeing from communism, and are so happy to live in this free 
country. And they have a little museum, again, made up of the 
artifacts from the people who fled in boats or who fled from 
the communists.
    Would you think about accommodating those types of 
activities that are sort of indigenous, in a way, but are very 
real? How would you deal with that?
    Mr. Bunch. Let me use the example of what we did with the 
National Museum of African American History and Culture. There 
are literally 150 small museums around the country that look at 
African American culture. And there was great concern that, if 
you create a museum, does that hurt us? Are we left----
    The Chairperson. Well, they are not concerned in that way. 
Let me make that clear.
    Mr. Bunch. But I think what is important is that what we 
realized is that a national museum ought to draw people to 
Washington but then push them back to local museums. So let 
people understand that you can't build these national museums 
without recognizing that you are standing on the work that is 
done at these small institutions.
    So my goal would be to always celebrate those institutions 
as part of the foundation of creating any national museum.
    The Chairperson. That is really wonderful. Thank you so 
much, Secretary Bunch.
    And I will turn now to Mr. Walker.
    Mr. Walker. Thank you, Madam Chair.
    Mr. Bunch, let me say, you have done a great job. And I 
appreciate, as we were talking about earlier, the heart and 
energy that exists in the African American Museum, and I hope 
that that is something that continues to be part of our future 
in representing and honoring all cultures.
    A couple questions, though. The Women's History Museum 
Commission report indicated construction costs of the museum 
would be fully financed by private funds. In your opinion, is 
that model really possible? I just want to have kind of an 
answer in the sense of knowing what we are facing moving 
forward as we work bipartisan to try to get there. Is it 
possible? And if not, why isn't it?
    Mr. Bunch. I think that makes the hill a very steep hill to 
climb. I would argue that what is crucially important is a 
public-private partnership, that what that does, it allowed me, 
for example, building the African American Museum, to talk 
about how the support from Congress could be then leveraged 
from the private sector. And, in essence, many people in the 
private sector said, we want to help as long as we see that 
Congress is also part of the process.
    So can it be done without congressional support? Sure, it 
can, but it makes it a much, much more difficult task. I am so 
grateful that the legislation to create the African American 
Museum had a 50-50 split.
    Mr. Walker. Yes.
    It is very clear, as recently as Super Bowl Sunday, the 
incredible history and impact, musically and culturally, that 
Latinos have made on our country.
    The National Museum of American Latino Commission report 
laid out a plan of which no Federal funds would be required for 
the first six years of planning and pre-construction work for a 
new museum. Once again, just from a clarity standpoint, do you 
think that approach could work?
    Mr. Bunch. I think that one of the great successes of what 
would make any new museum work is to have some congressional 
support up front so that they can find the staff to help raise 
funds, they can plan better what this museum should be, which 
will get people excited. I just think that it really has to be 
a public-private partnership.
    Mr. Walker. I have one more question, but I want to get off 
the paper for just a second. Part of the attraction to the 
African American Museum is just the atmosphere and the energy 
that was captured in that. Do you think that can be duplicated 
in these other arenas as well?
    You don't walk through the African American Museum without 
being moved tremendously. Is that something that you foresee 
could be in other museums honoring different people, groups or 
women in general?
    Mr. Bunch. There is no doubt in my mind that the sense of 
intimacy, the sense of reducing history to human scale, the 
sense of drama that is at the African American Museum can be 
replicated, even done even better in these new museums.
    So my expectation would be that they would be places that 
you would revel in the past but you would feel an intimacy that 
would shape who we are today and maybe even point us toward who 
we can become as a Nation.
    Mr. Walker. Your answer was much more articulated than even 
my question, so thank you.
    So my final question here. The CBO prepared a recent cost 
estimate for H.R. 1980, the proposed Smithsonian Women's 
History Museum. Based on a 50-50 private Federal funding model, 
the total construction costs would be around $484 million.
    Do you believe this is a realistic funding level for 
construction of a new museum? In the past, frankly, we have 
seen lots of cost overruns and even delays. Does this cost 
estimate account for those items? And if not, should it? And 
why?
    Mr. Bunch. I think it is a reasonable estimate. I think 
that you have to realize that, if you are going to build a 
museum of a size that is credible, it means that you are going 
to spend $300 million to $400 million just to construct the 
building, but you also then need another $90 million to $100 
million to do the exhibitions, to build the collections.
    So I think it is a number that is in the ballpark. My 
expectation would be that it would probably cost more than it 
cost to build the African American Museum.
    Mr. Walker. Thank you, Secretary Bunch. Your expertise is 
very valuable.
    I yield back.
    The Chairperson. Thank you.
    Mr. Davis has arrived and said that he is going to put his 
opening statement into the record, which we, by unanimous 
consent, will do.
    [The statement of Mr. Davis of Illinois follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. And we will turn to Mrs. Davis.
    Mrs. Davis of California. Thank you very much, Madam Chair.
    And welcome, again----
    Mr. Bunch. Thank you.
    Mrs. Davis of California [continuing]. To the Committee and 
bringing your expertise and your vision with you.
    You know, I picked up from your words a kind of cautionary 
tale, I guess, at this point. And I am just wondering if you 
could expand on that a little bit.
    One of the things that you mentioned, which was so critical 
here, is the scholarship and bringing together all the 
expertise and gathering that up, which was the job that you had 
with the National Museum of African American History and 
Culture.
    How do you see that then? Is that something that we have 
that is sitting there, ready to go? Or is that something that 
really is a process over the course of five years, ten years?
    Mr. Bunch. One of the great strengths of looking at the 
Latino museum or Asian Pacific American museum is that the 
Smithsonian has these two centers that are already doing a lot 
of this work, that are building the relationships with 
scholars, that are testing ideas and programs and education, 
which the African American Museum didn't have. So, in some 
ways, these centers are crucial whether we build the museum or 
not, but they will allow the process to move more quickly.
    I think the challenge is that, no matter what we do, it is 
going to take several years of planning, of really getting to 
know the audiences, understanding what people want and how to 
then translate that into a concrete form. But I think that what 
excites me is I listen to Eduardo Diaz or Lisa talk a little 
bit about the work they are doing, and I think what a wonderful 
foundation that is.
    Mrs. Davis of California. I wonder, though, whether there 
is a sense of--because they brought those elements together 
already, essentially, whether there is an impatience then. And 
how can you address that so that it is a standalone, which has 
a different feel to it?
    Mr. Bunch. As somebody whose whole career has been shaped 
by a desire to not erase history, to expand our understanding 
of who we are as Americans, I like the fact that there is a 
lack of patience--right?--that it is really important to make 
sure we tell these fuller stories.
    I think what is important is to recognize that the 
Smithsonian believes that we have to tell these stories 
regardless of whether there are museums or not.
    We are prepared, with the right leadership from Congress, 
with the right understanding, to craft museums that are full of 
wonder, that will enrich us as a community. But we are also 
prepared to make sure that we build on the work, that support 
you have given us, to be able to bring in curators who are 
transformative, to be able to do the kinds of programs to make 
sure that people see the Smithsonian as what it is: a place 
that helps us understand all of who we are, not just part of 
who we are.
    Mrs. Davis of California. Thank you. I appreciate that.
    And I am wondering, just in responding to the Chairperson, 
whether the opportunity to fund the deferred maintenance--does 
that give you a sense of, I guess, more preparedness to move 
forward? Because, again, you know, trying to have eyes wide 
open here, taking on too much can be problematic. But does that 
make a difference so that we make sure that the deferred 
maintenance is taken care of in existing museums?
    Mr. Bunch. When I became Secretary, the--I won't say the 
biggest surprise, but the sort of thing that really struck me 
was that we have to wrestle with this deferred maintenance. It 
is too important not to, and we don't want to just push it down 
the road.
    I think that if we can make sure that we do get the support 
that allows us to continue our creative way of looking at 
maintaining this deferred maintenance, to be able to restore 
the Air and Space Museum that allows us to take away $200 
million of deferred maintenance, to really think strategically 
how we do it, then I think we can move in the directions of new 
institutions.
    But I think, without recognizing the impact of these on the 
Smithsonian, I think what it does is it slows the process. It 
makes the process something where the Smithsonian is fighting 
within itself, rather than rallying around to craft these new 
institutions.
    Mrs. Davis of California. Well, I look forward to your 
expertise as we move forward. Thank you very much.
    The Chairperson. Thank you.
    Mr. Davis is recognized for his questions.
    And thank you.
    Mr. Davis of Illinois. Thank you, Madam Chair.
    And following up on my colleague Mrs. Davis's questions 
about deferred maintenance and the backlog, look, I appreciate 
what you do. Sorry we saddled you with Shimkus on the Board of 
Regents, but, you know, he is really enjoying the opportunity, 
and I know he speaks very highly of the entire board.
    We want to see you succeed. We want to see the Smithsonian 
continue to be the worldwide institution for history and 
especially our history. But the deferred maintenance backlog 
that Mrs. Davis mentioned, it really concerns a lot of us too. 
It is upwards of $1 billion right now.
    Your appropriations for maintenance are actually below 
industry standard, which is an obstacle to this backlog.
    What is the impact on your current facilities, including 
some of the most visited museums in the world, like the Air and 
Space Museum and American History Museum, if new museums are 
added to your portfolio?
    Mr. Bunch. There is no doubt that we have to figure out the 
way to address that so that we are really reducing our backlog. 
There is no doubt about that.
    I think that I really take a lot for the support you have 
given us for the Air and Space Museum. All that renovation is 
really allowing us to reduce that backlog.
    We are going to have to think very creatively. And what we 
have done, as I mentioned before, is look at it in a much more 
strategic way, to really analyze where the real needs are, so 
that we are putting our resources in addressing what are the 
most significant, crying-out needs.
    Also, though, because of your support, we are able to do 
more preventive maintenance, which I think is the way we want 
to make sure that we don't have this challenge with the African 
American Museum, we are doing more in the Museum of American 
History.
    But I think the point is that we have to do this with both 
hands. If we create something new, we have to make sure what is 
old is taken care of as well.
    Mr. Davis of Illinois. I agree. And I am very supportive of 
the concept. But we also want to make sure that you have the 
resources at the Smithsonian to continue to put the best of the 
best museums to honor our Nation's history like you have.
    But if that maintenance remains at the current level, what 
about 10 years from now? What is the state--you know, we are 
doing well with the Air and Space Museum and some of the 
backlog there and preventative maintenance. You know, if we 
don't make changes to how we address the maintenance backlog 
now, what do you anticipate these museums will look like in 10 
years?
    Mr. Bunch. Well, I think that it is hard for me to sort of 
say, in 10 years, it will be X. What is clear to me is that we 
have people working very diligently on what are all the things 
we can do to reduce that backlog.
    For me, the most important thing is to make sure that the 
visitor experience at the Smithsonian remains high and 
wonderful and treats people effectively. But, also, it is 
crucially important that we maintain the collections.
    So what I am doing is what any leader does: You juggle. 
Right? You want to make sure that we have the resources that we 
need, and I want to put a lot of our attention on maintaining 
that.
    And so we really are appreciative of the support that you 
have given us in this regard. At some point, it is crucial for 
us to simply say, are there new ways we can think about 
maintaining and attacking the backlog? And that is something we 
are working on.
    Mr. Davis of Illinois. Well, we appreciate that.
    And I do have a question later about storage capacity. And 
if we don't get to it, I would love to be able to get a written 
response later, because I think it is important for us to 
understand the issues that you may face when it comes to 
storage collections when you have the opportunity to have more 
artifacts come in for newer opportunities and ideas.
    But I do want to address in my last question, in testimony 
before this Committee, your predecessor, Secretary Skorton, 
stated that the Smithsonian did not have the capacity to bring 
new museums to fruition given other competing challenges, which 
is not what we want. We want to see new museums like those 
discussed here today. But do you share that concern, Mr. 
Secretary?
    Mr. Bunch. I share the concern that we have to address this 
backlog, but I believe that with your leadership and with our 
creativity, that with the resources that we need, we can begin 
to build new museums if necessary.
    Mr. Davis of Illinois. I agree with you.
    The Federal budget for the Smithsonian is about a billion 
dollars. If additional funding is required to support new 
museums and to meet other priorities, can you give me a range 
of what you think you might make as a request for us to 
continue to provide you the resources for new possibilities and 
for existing museums?
    Mr. Bunch. Well, I would like to really come back to that 
and give you an answer. I think it is important to recognize 
that, if you build a new museum, after you have built it, then 
the costs are probably anywhere from $25 million to $40 million 
annually just to operate, the direct costs.
    Then there is probably another $40 million to $60 million 
that is really the cost to make sure that you can provide the 
security, that you can make sure that you have the contracting 
to support that.
    So there are costs. And that is what I meant by saying, if 
we are going to do things like this, we have to realize that 
opening the museum is just the beginning.
    Mr. Davis of Illinois. Great. Thank you.
    I yield back.
    And I really enjoy working with you.
    Mr. Bunch. Thank you very much.
    The Chairperson. Thank you.
    The gentleman from Maryland is recognized.
    Mr. Raskin. Thank you, Madam Chair.
    Mr. Bunch, welcome.
    Mr. Bunch. Good to see you.
    Mr. Raskin. How do you determine the appropriate size of a 
museum?
    Mr. Bunch. You look at several things. First of all, you 
look at the visitation you might expect. There is a certain 
number that the Smithsonian will always get. You also look at 
the stories you want to tell, how many exhibitions you need to 
tell. You want to look at whether or not you have on-site 
storage or off-site storage.
    So you look at a variety of factors. You also look at what 
the site allows you to do. And what we have discovered is, to 
be able to do a building that serves the public, also protects 
the staff and gets the right amount of staff, it is about 
350,000 square feet. That is, sort of, industry standard here 
at the Smithsonian.
    Mr. Raskin. So what are the major challenges presented by 
creating a new museum, and what are the major benefits of 
creating a new museum?
    Mr. Bunch. You got three hours?
    I think that there are many challenges. Obviously, the 
challenge of balancing new with old--right?--making sure that 
we are taking care of the entire Smithsonian.
    It is crucially important to realize that we have to build 
a strong fundraising apparatus from the very beginning so that 
we can make sure of the resources that are there from the 
private sector.
    It is also essential to build a strong staff. And then most 
of these museums, like the African American Museum, will have 
to build collections, so to think about what are the variety of 
strategies that allow you to find the stuff of history that 
people need to see.
    But maybe more than anything else, it is important to 
recognize, how do these new museums find the right balance 
between tradition and innovation? What is the role of 
technology? Does that add additional burdens? Does that save us 
costs?
    Ultimately, what you are really doing is, on new museums, 
from the African American Museum on to anything new we build, 
what you are saying is: It is no longer acceptable just to be 
something that serves audiences in Washington. So what are the 
ways you reach beyond that?
    So all of that are part of some of the challenges.
    One of the benefits is really that--the history of America 
is so complicated that no one building can do it. But the 
Smithsonian has this amazing opportunity to create different 
portals into what it means to be an American, a portal that may 
go through the Air and Space Museum or the African American 
Museum. And what that does is it means that, even if you are 
only interested in technology, suddenly you can see 
connectivity because you are at the Smithsonian. That is 
something that doesn't happen anywhere else in the world.
    Mr. Raskin. I wonder if you would reflect for a moment on 
the experience of the African American Museum, since you were 
the founding director of it. Specifically, if you would address 
the original points of skepticism that were leveled against the 
museum and then how the experience since has responded to the 
original kinds of criticisms that were leveled against the 
idea.
    Mr. Bunch. Well, first, the notion was that this museum had 
been floating around for 100 years so it would never happen. So 
part of the strategy was making the museum exist from the day I 
started, not waiting for a building--birthing the museum 
online, doing traveling exhibitions, and basically creating a 
space in the Museum of American History that now the other 
museums are building on. I think that was crucially important.
    I think one of the real challenges were that many of these 
smaller African American museums were very concerned that this 
would take away resources. But what has happened since then is 
the visibility of the museum, the excitement about African 
American culture has led to increased visitation around the 
country, has led to more support from local governments for 
these kinds of institutions.
    I think the biggest challenge was to think, what does it 
mean to be a 21st-century museum? What is the role of 
technology? What is the role of reaching out? And I think the 
museum, sort of, invented a lot of new things that we can build 
upon.
    So, ultimately, the key for us was to think about, how do 
you craft a museum--the fundamental question I would ask is, 
how do you craft a museum on the Mall that is part of the 
Smithsonian that serves a community but serves more than that 
community? That, I think, is one of the fundamental questions.
    Mr. Raskin. Well, I appreciate that. And I just wanted to 
tell you, a week doesn't go by when I am not there a day or two 
a week for different events. It has become such a spectacular 
asset, not just locally but nationally.
    I yield back, Madam Chair.
    The Chairperson. The gentleman yields back.
    The gentleman from Georgia is recognized.
    Mr. Loudermilk. Thank you, Madam Chair.
    Mr. Secretary, thank you for being here. Thank you for your 
leadership and guidance. I am a huge fan of the Smithsonian.
    Mr. Bunch. Thank you.
    Mr. Loudermilk. It has been part of my heritage growing up, 
the excitement of seeing the artifacts, being in touch with our 
history, our heritage, our culture. And I am invigorated by the 
idea, the vision of moving forward.
    One of the things about the Smithsonian Institution that I 
think resonates with people is quality. There is a term back 
home, especially if you see--like the museum I have in my 
district, the Southern Museum of Railroad Heritage in Kennesaw, 
Georgia, the site of the beginning of the Great Locomotive 
Chase during the Civil War. It has been a museum for years. 
Smithsonian partnered, and now the term is, it is a 
Smithsonian-quality museum. And I think that is a very, very 
important aspect.
    So my concern is continuing that level of quality, the 
viability going forward. And there are really three things--as 
a business owner in the past, there are three things that can 
really harm a business: being undercapitalized during the 
growth period, the first three to five years; you don't have 
enough capital to go forward and grow. The other thing, once 
you are past that period, is the lack of growth. But there are 
many businesses that fail because of excessive growth, that 
they cannot keep up and maintain their current customer base or 
their current product, and it causes the collapse of very 
viable businesses.
    I am going to echo some of the concerns we have here, 
because I am with you. We want to make this happen. And you 
have to have growth in business. If you are stagnant, people 
tend to move on. Even if you are providing a good product, they 
are always looking for better. So it is important to grow.
    But with the maintenance backlog and nearly a billion-
dollar cost of the renovations that are greatly needed to the 
Air and Space Museum, my concern is--and I hear what you are 
saying, that you have really good people dedicated to 
eradicating this backlog. But is there a plan--a plan--in place 
that says, from this date to this date, we are going to 
eliminate the backlog we know of now?
    And that is just--I don't know that we really have our 
hands wrapped around that. I know that, yes, part of leadership 
is juggling, but also part of leadership is a plan with 
benchmarks that you can get to.
    If you wouldn't mind responding.
    Mr. Bunch. Sure. I think that I have said as soon as I 
became Secretary, that is one of our major priorities, to 
develop that plan. We have parts of it in place. We don't have 
a complete plan, and that is something we are working on.
    But I think it is also key for us to understand that that 
plan is going to mean we are going to have to tap our 
fundraising to see if that is a way to begin to address it. We 
are going to have to tap how we are already doing some 
restorations and renovations in our old buildings. We have to 
look at how do we move up so that we are spending more of our 
money towards that maintenance. And the key for us was 
preventative maintenance.
    And so the support we have, we have a plan on how to make 
sure that we don't continue just to grow the backlog, that----
    Mr. Loudermilk. Right.
    Mr. Bunch [continuing]. We actually put a cap on it. And so 
that is what we are working on. And there will be a more 
detailed plan as we move forward.
    Mr. Loudermilk. Are there outside sources of revenue that 
can bring things in? Like, one of my favorite television 
channels is Smithsonian Channel.
    Mr. Bunch. Sure.
    Mr. Loudermilk. I love ``Aerial America.''
    Mr. Bunch. Right.
    Mr. Loudermilk. I mean, it is kind of a go-to program for 
me. Do you receive any revenue from that from advertising? Are 
there sources like that that we can--I never want to see us 
charge for the actual museum, but----
    Mr. Bunch. Right.
    Mr. Loudermilk [continuing]. Are there outside revenue 
sources that we can invest in to grow?
    Mr. Bunch. We have looked at all the things that we have 
sources of revenue coming in. We are looking at, are there--for 
example, we have an endowment for the facilities that probably 
throws off $50,000 a year, which is not much. So to think 
about, as we look towards maybe another capital campaign, is 
that endowment a crucial part of it, so is that going to allow 
us to put more money into deferred maintenance.
    Mr. Loudermilk. Okay.
    Mr. Bunch. We are looking at all the opportunities we have 
at this stage to see where we can take resources to go in this 
direction.
    Mr. Loudermilk. Last question, really quickly. You had 
testified that the Mall area--this was in the Transportation 
and Infrastructure Committee--is now a floodplain, could 
potentially be subjected to floods. Is it wise for us to look 
at building new museums actually in that area if that is a 
concern?
    Mr. Bunch. One of the things that we have looked at is, are 
there models that say we shouldn't build in that area, are 
there models that say we should move museums, and there aren't.
    What we have had to do is, when we built the African 
American Museum, we built that recognizing that there is going 
to be rising water, that it is a different environment, and we 
put systems in place to ensure that we can protect that 
precious treasure.
    We have also made--in areas where we couldn't build new, 
you know, we have moved collections out of lower levels just to 
make sure that we are protected.
    So, like all of us, we are wrestling with what this means 
and how we address it, but we think we have moved in a smart 
way to make sure we have protected the collections right now.
    Mr. Loudermilk. Thank you.
    The Chairperson. Congresswoman Fudge.
    Ms. Fudge. Thank you, Madam Chair. Thank you so much, Mr. 
Secretary, for being here.
    I just really have two questions: One is, for the museum 
honoring Latinos, there was a capital site that was--or a 
recommended site for the museum, which, we understand, can 
accommodate a building of about 250,000 square feet.
    Is that large enough, or are we putting ourselves behind 
the eight ball before we start? And does that--will it 
accommodate storage and administrative offices in that space?
    Mr. Bunch. At 200,000 square feet, what you really have to 
think about is collections will not be able to be housed in a 
place like that. I am not sure that is large enough for the 
staff that would really need to be--to handle that. And I also 
think there is a symbolic issue, and that is, the question of 
people who expect new museums expect them to carry the weight 
like other Smithsonian museums, that the buildings themselves 
are part of the symbol, and a building of 200,000 square feet 
may not be large enough to do that.
    Ms. Fudge. So what, then, would be your recommendation to 
the Committee, because clearly, I don't think it is big enough, 
knowing what we already have. What would you then do with your 
storage needs? What would happen with that, if that is the site 
that was selected?
    Mr. Bunch. I think that what we would have to do is look 
candidly at what we had to do with the African American Museum. 
We had two options: One is, do you build new storage areas like 
out in our Suitland campus or out in Dulles. To build a new 
storage unit costs, you know, over $100 million.
    Ms. Fudge. In addition to the cost of this building?
    Mr. Bunch. Oh, absolutely. Or do you take rental spaces? 
You know, we rent space out at Pennsy, and that is a cost that 
is going to hurt us down the road.
    So what you want to do is recognize, though, that the Mall 
is sacred space, so you do want to use as much of that space as 
possible for the visitors, and for the services that need to be 
there, and you want to have a minimal collection storage, and 
then you have got to find another place as your collections 
grow.
    Ms. Fudge. All right. And, so, I just want to be clear that 
that then becomes a significantly larger cost than the cost of 
the museum, which is what we are talking about today, so that 
people are aware of the fact that it is going to impact a lot 
of other things, including possibly your other plans for other 
museums.
    The other thing is, is there--and, if there is, please let 
me know--a fund-raising plan for the museum? Do you know if 
there is one, and, if so, what it is?
    Mr. Bunch. I think, at this stage, it is too premature to 
have a fund-raising plan. You would really want to, sort of, 
think about exactly the location, to have leadership think 
about what are the products that you want to produce--exhibits, 
et cetera--but what is crucial, then, is to have the support so 
that you can hire fund-raisers very early in the process. I 
don't think we are there yet, but that is something that I 
would argue needs to happen very shortly after a museum is 
being willed into existence.
    Ms. Fudge. Well, I would just close by saying that I 
wholeheartedly support the museums, but I also--we have some 
fiscal responsibility to the taxpayers to be sure that we are 
acting in an appropriate manner as we start to move down the 
road with this, so I thank you, and I yield back.
    Mr. Bunch. Thank you.
    The Chairperson. Thank you.
    Mr. Aguilar from California, and also a member of the 
Appropriations Committee, who we are looking to, to help us get 
our deferred maintenance funds.
    Mr. Aguilar. Thank you, Chairperson, and I think, with that 
pressure in mind, I will just kind of start down that path.
    Mr. Secretary, your budget request, as my colleagues had 
mentioned, for fiscal year 2020, you had requested $219 million 
for the facilities capital account. You were appropriated $253 
million. So, my first question would be, how do you plan on 
using the additional $34 million that you were appropriated?
    The second piece of that is, the list--the specific list of 
16 projects that you mentioned within the 219 requests, are 
those still valid? Are those estimates? Is the completion of 
those projects still possible given the dollars that we were 
appropriating?
    Mr. Bunch. Well, I think the estimates are still accurate.
    Mr. Aguilar. Okay.
    Mr. Bunch. And what we want to do is use some of the 
additional resources to really focus on preventive maintenance, 
to really make sure that we are just not continuing to dig a 
deep hole.
    I think that the additional support allows us to be even 
more creative in how we use and how we address this. It also 
reminds us that it is going to take a concerted effort with 
Congress finding some other sources as well, because this is 
really a challenge that we have left for so many years that it 
is going to take more than 2 or 3 or 4 years to fix it.
    Mr. Aguilar. Sure. And I don't want you to get ahead of OMB 
and the President's budget next week, but, you know, just among 
friends here, you know, what would be the capital request? What 
would be the ballpark estimate of a capital facilities request 
that you might propose to the Appropriations Committee?
    Mr. Bunch. I would love to get back to you with that----
    Mr. Aguilar. Sure.
    Mr. Bunch [continuing]. Because we are still grappling with 
what we think is the right number.
    Mr. Aguilar. Sure. I look forward to monitoring that across 
the process, and as the Chairperson said, we are serious about 
addressing this, and maybe it takes some bold action on our 
part in order to really chip away at this backlog in a big way.
    But we are serious about meeting those obligations as well 
as honoring the commitment. You sat there and heard our 
colleagues talk about some of these ideas for future plans as 
well, and I know that you have had a lot of those 
conversations. I appreciate you attending the Hispanic Caucus 
meeting a few months ago with Eduardo Diaz.
    And you talked a little bit about the Molina Family Gallery 
opening in 2021; the exhibit is going to have bilingual stories 
and a cross-cultural audience as well to enjoy. Given the state 
of play--and this is similar to questions you heard in that 
meeting--given the state of play in our country when it comes 
to race relations, can you speak to what steps the Smithsonian 
Institution is taking to ensure that that 4,500-square-foot 
exhibit can adequately represent over 600 years' worth of 
diverse Latino American history?
    Mr. Bunch. One of the things with the Molina Gallery that I 
have asked is, give me a five-year to ten-year plan of what 
else you would do in the gallery. The plan is to have an 
opening exhibition that frames the broad issues, explores the 
community. But clearly, one exhibit is not going to get us to 
where we really need to be, but I think, if we look--much like 
I did with the African American Museum, look at an array of 
issues that we can explore over the next four, five, six years, 
that begins to get at this, because the most important thing 
the Molina Gallery does is twofold:
    One is to sort of firmly say to the Smithsonian and say to 
the Smithsonian's public, this is so important that we want to 
give it square footage. That is--you know, when you come to see 
it, that is important. But the second thing is, it should be a 
space that allows us to test ideas, test the way the audience 
engages, test the way different communities think about the 
experiences, so, therefore, we can then improve, and if we move 
down the road towards a museum, we have actually laid a strong 
foundation.
    Mr. Aguilar. I appreciate it. You know, one of our goals 
is, as you heard with our colleague, both of whom are retiring, 
Mr. Serrano and Mr. Hurd, we want to move that bill. We want to 
mark that up, and we want to move it in a strong bipartisan 
way, and part of that is, obviously, making the case that the 
exhibit space that we are going to be utilizing is done 
appropriately. I appreciate the steps that you are taking in 
that regard.
    What process are we going to use--and I know you are 
talking about making that case and having that kind of long-
range view. What opportunities for collaboration are included 
in that within the role that Mr. Diaz plays, as well as within 
your role and in others? What are different opportunities where 
folks can say, Hey, try this out, or why don't you include this 
era, or do a little bit more of this instead of that? What 
opportunities for collaboration and input----
    Mr. Bunch. Uh-huh.
    Mr. Aguilar [continuing]. Do you see in a more formal way?
    Mr. Bunch. I think it is important to realize that the 
Smithsonian is in a networked age, that it is--no longer has 
broad-enough shoulders to carry everything, and it has got to 
find ways to both collaborate with museums that care about the 
subjects we want to explore, to help us look at new ideas, but 
also to help us convey our ideas outside of Washington so that 
what you want is a kind of mutually reciprocal relationship 
that is a long-term commitment that improves both the 
Smithsonian and local entities.
    I think the other thing is to make sure that the Latino 
Center of the Smithsonian is doing a much better job developing 
new support, new interns, new fellows, so that we are really 
making sure that we have got new generations of, if not museum 
people who can shape museums, at least museum consumers who can 
support it.
    Mr. Aguilar. I appreciate it. Thanks, Mr. Secretary. Thank 
you.
    Thank you, Madam Chair. I yield back.
    The Chairperson. The gentleman yields back.
    Mr. Secretary, it is always an honor to have you here, and 
we are very proud of you, and grateful that you are the 
Secretary of the Smithsonian.
    Mr. Bunch. Thank you.
    The Chairperson. And thank you for answering our questions 
and for the terrific job you are doing.
    Mr. Bunch. Thank you very much. Appreciate it.
    The Chairperson. All right. We will now call up the third 
panel.
    So welcome to everyone. I am going to introduce first Henry 
R. Munoz III, who is the Chairman of the National Museum of the 
American Latino Commission, a legislatively created, 
independent position established to study the feasibility of 
creating a museum dedicated to Latino American culture within 
the Smithsonian.
    In addition to leading the Commission, Mr. Munoz has served 
the Smithsonian as vice chairman of the Smithsonian National 
Board, chairman of the Smithsonian National Latino Board, and 
trustee of the Cooper Hewitt National Design Museum. He is also 
chairman of the board and chief creative officer of Munoz & 
Company, one of the largest and oldest minority-owned design 
practices in the country.
    We also have Beth Lew-Williams, who is an associate 
professor of history at Princeton University, and a historian 
of race and migration in the United States, specializing in 
Asian American history. Her recent book, ``The Chinese Must Go: 
Violence, Exclusion, and the Making of the Alien in America,'' 
has won a variety of awards, including the Ray Allen Billington 
Prize, and the Ellis W. Hawley Prize and the Organization of 
American Historians, and the Sally and Ken Owens prize from the 
Western History Association, as well as the Vincent P. DeSantis 
Book Prize from the Society of Gilded Age and Progressive Era, 
and the Caroline Bancroft History Prize, a book I think we 
probably have to get and read.
    Prior to her time at Princeton, Dr. Lew-Williams was a new 
faculty fellow at Northwestern University appointed in history 
and Asian American studies.
    We have Lisa Sasaki, who is the Director of the Smithsonian 
Asian Pacific American Center, a museum without walls, that 
brings Asian Pacific American history, art, and culture to 
communities through innovative museum experiences online and 
throughout the country. She is also a frequent guest lecturer 
for museum studies graduate programs, and, prior to her time at 
the Smithsonian, Ms. Sasaki served as the Director of the 
Audience and Civic Engagement Center at the Oakland Museum of 
California, and the Director of program development at the 
Japanese American National Museum in Los Angeles.
    And, finally, last but not least, Eric Petersen is a 
specialist in American national government in the government 
and finance division of the Congressional Research Service, 
where he has worked for two decades. He conducts research and 
provides policy analysis support and training for Members of 
Congress and their staff. His research areas include the 
Smithsonian Institution, congressional administration and 
staffing, constituent service management, and the Government 
Publishing Office, which, by the way, we will be having an 
oversight hearing on that in the coming weeks.
    Dr. Petersen earned undergraduate degrees at the Community 
College of Philadelphia and the University of Pennsylvania. His 
graduate work includes a master's in public administration from 
Virginia Tech, and a Ph.D. in political science from Syracuse 
University.
    In addition to his work at CRS, he is a lecturer at the 
John Glenn College of Public Affairs of the Ohio State 
University.
    Thanks to each of you. I will remind you that your 
statements should be about 5 minutes, and then we will go to 
questions.
    So, Mr. Munoz, we will turn first to you.

   STATEMENTS OF HENRY MUNOZ, CHAIR, NATIONAL MUSEUM OF THE 
  AMERICAN LATINO COMMISSION, WASHINGTON, D.C.; DR. BETH LEW-
WILLIAMS, ASSOCIATE PROFESSOR OF HISTORY, PRINCETON UNIVERSITY; 
   LISA SASAKI, DIRECTOR, SMITHSONIAN ASIAN PACIFIC AMERICAN 
CENTER; AND DR. ERIC PETERSEN, SPECIALIST IN AMERICAN NATIONAL 
           GOVERNMENT, CONGRESSIONAL RESEARCH SERVICE

                    STATEMENT OF HENRY MUNOZ

    Mr. Munoz. Thank you, Chairman, and thank you, members. It 
is an honor to be here today to provide testimony regarding the 
many decades of work held aloft by so many people across this 
country--scholars, curators, historians, scientists, teachers, 
artists, activists, businesspeople, volunteers, and everyday 
citizens--I am one of them--to answer the question of whether 
there should be a national museum of the American Latino in our 
Nation's Capital.
    I am here today, not just as the chairman of the Commission 
to establish a national museum of the American Latino, but as 
the first Latino in the 173-year history of the Smithsonian to 
ever serve a term on its national board. Mainly, I am here 
because I grew up in South Texas during a time where the 
stories of people like myself and our families were not 
included in museums or archives or libraries.
    Our Commission, after working for almost two years, found 
the answer to be abundantly clear: Yes, the time has come for 
the creation of a place on The National Mall, where our most 
important monuments are located, where we conduct the business 
of our Congress, pay tribute to our veterans, gather to 
inaugurate our presidents, and where we give full voice to our 
freedom of speech. The Mall, more than any other public space 
in our country, should tell the story of America, recognizing 
that Latinos were here well before 1776, and that, in this new 
century, our future is increasingly Latino, more than 58 
million people and growing. The Commission investigated nine 
sites, and, yes, made a recommendation of one.
    The Commission believes strongly that the new museum should 
be a part of our Nation's preeminent scientific research and 
cultural institution, the Smithsonian Institution, and when 
created, should be known as the Smithsonian American Latino 
Museum, free to every American citizen and governed in the same 
manner, and funded in the same manner as the National Museum of 
the American Indian and the National Museum of African American 
History and Culture, a place that, within the vision of the 
Smithsonian, for the increase in diffusion of knowledge, is not 
just a monument to past accomplishments, but a 21st-century 
learning laboratory connected to cultural centers and schools 
across the country, recognizing that many American children may 
never visit Washington, D.C., and, yet, deserve to have access 
to great American stories.
    This is possible because of the work to create and the 
funding of programs, exhibitions, and territorial positions 
established throughout the Smithsonian Museum system over the 
last 30 years at the American History Museum, the American Art 
Museum, the National Portrait Gallery, the Cooper Hewitt 
National Design Museum, and the Natural History Museum, and 
this is just the beginning.
    These efforts will soon be joined by the privately funded 
Molina Family Latino Gallery within the walls of the American 
History Museum, and our collections are accessible to every 
American citizen through the Smithsonian's Latino Virtual 
Museum.
    The National Museum of the American Latino Commission 
responded to the direction of Congress to engage the American 
people in order to create a strategic plan for the 
establishment and maintenance of the museum; to develop a fund-
raising strategy to support the museum; to report on the 
availability and cost of collections to be acquired; to examine 
the impact of this museum on regional Latino museums; to 
analyze and recommend possible locations for the museum; to 
recommend whether the museum should be located within the 
Smithsonian Institution; to recommend a governance and 
organizational structure for the museum; to engage the American 
Latino community in the development of the museum; to determine 
the cost of constructing, operating, and maintaining the 
museum; and, finally, to assist in drafting legislation to 
carry out the plan of action to create and construct the 
museum.
    In May of 2011, in a ceremony at the White House, the 
members of the Commission, ahead of schedule and under budget, 
delivered to the President of the United States and to Members 
of the Congress, a final report containing our in-depth 
analysis, findings, and recommendations. Based upon our work 
with a broad group of thought leaders and experts, and, most 
importantly, a dialogue with hundreds of thousands of citizens 
in communities across the United States, both in person and 
online, in the first-of-its-kind effort, now carried forward by 
the friends of the American Latino Museum, the Commission 
articulated a comprehensive plan for the establishment of the 
Smithsonian American Latino Museum.
    I have attached an executive summary of the Commission's 
final report for your record, and I am happy to report that the 
findings validate the readiness of this idea to be formalized 
by Congress. It is completely within the capabilities of the 
Smithsonian Institution and this young, dynamic, fast-growing, 
and economically-significant population of Americans to give 
birth to, and to sustain a new national museum.
    At this moment in our country's history, when cultural 
understanding could not be more essential to the enduring 
strength of our democracy, I am asking, on behalf of the 
American people, to carefully consider the importance of 
creating the Smithsonian American Latino Museum so that we may 
illuminate the American story for all.
    [The statement of Mr. Munoz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. Thank you very much.
    We will turn now to you, Dr.--let's see. Who am I----
    Ms. Lew-Williams. Lew-Williams.
    The Chairperson. Dr. Lew-Williams.

                 STATEMENT OF BETH LEW-WILLIAMS

    Ms. Lew-Williams. Well, I want to thank the Committee for 
holding this hearing and having this conversation, and thank 
you for allowing me to testify.
    Every year, I begin my semester at Princeton by asking my 
students: What do you know about Asian Pacific American 
history? What have you been taught? And the most frequent 
answer I get is, Nothing. And, when pressed, they will usually 
recall that the Chinese built the railroad and the Japanese 
internment was a tragic mistake.
    Most of the time, they have learned these things thanks to 
a couple of paragraphs in their high-school textbook, and this 
is true whether they come from New Jersey or from Texas or from 
Virginia, or even from California. Their K-12 education is 
practically devoid of the history and culture of Asian Pacific 
Americans. And I think, if you think back to your own 
education, I would wonder what you learned.
    And, according to research, this lack of knowledge that I 
observe in my classroom is due to a lack of exposure, and 
studies of U.S. history and government textbook show a 
startling dearth of content on Asian Pacific Americans. In the 
National Register of Historic Places, only 3 percent of sites 
are associated with their history, and history isn't the only 
area of neglect. A 2019 study of U.S.--major U.S. art museums 
found that only 0.06 percent of showcased artists are Asian 
American.
    What I want to say today is there is nothing natural about 
this omission. Asians and Pacific Islanders are the fastest-
growing racial group in America today, and our history in this 
country stretches back centuries. The first Chinese immigrants 
came to America in the 1820s, and their numbers rapidly 
increased with the 1849 gold rush in California. Chinese 
workers blasted tunnels through the Sierra Mountains to make 
way for the transcontinental railroad, they drained swamplands 
to make way for agriculture, and they fell trees needed to 
construct the towns and cities of the West. They were joined by 
Japanese, Korean, and Sikh immigrants, who labored in the 
fields and factories.
    As Asian immigrants who made America's landscape and built 
America's infrastructure, they also reshaped the legal 
foundations of the Nation. They brought landmark cases before 
the Supreme Court, which helped to define key concepts of 
citizenship and equal protection.
    As Asian American--Pacific Americans helped to build 
America, we also need to remember that America built this 
community through its actions in the world. The Spanish- 
American War brought Filipinos, native Hawaiians, Guamanians, 
Samoans into the national fold, and the Vietnam War brought 
waves of Vietnamese, Cambodians, Lao, and Hmong refugees.
    I think, if we fail to include Asian Pacific Americans in 
our historical memory, we emerge with a distorted understanding 
of our Nation. If we ignore the history of Chinese exclusion, 
we can imagine that America once welcomed the huddled masses 
yearning to breathe free.
    If we dismiss the Philippines and the Pacific Islands, you 
can pretend that America was never an empire. If we omit 
Japanese confinement during World War II, we can forget how 
quickly wartime hysteria can undermine our constitutional 
principles.
    If we want to understand the transformation of American 
politics, we need to remember women, like Representative Patsy 
Mink, the first woman of color to serve in Congress, and we 
also need to remember Grace Lee Boggs, a revolutionary who 
empowered the youth of Detroit. If we want to recognize the 
richness of American culture, we need to talk about Asian 
Pacific American food, music, architecture, art, and 
literature.
    People go to the Smithsonian to learn about America, who we 
are as a people and a Nation. Our national museums capture the 
stories we tell about ourselves, about our past and our future. 
By creating an Asian Pacific American Smithsonian, Congress 
could recognize the historically marginalized group and bring 
them closer to the rightful role in American society and 
American memory. This would convey a powerful vision of 
inclusion, diversity, and equality.
    I urge you to please take the first step in making this 
vision a reality, to form a Commission to consider a National 
Museum of Asian Pacific American History and Culture.
    [The statement of Ms. Lew-Williams follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. Thank you very much.
    Ms. Sasaki.

                    STATEMENT OF LISA SASAKI

    Ms. Sasaki. Chairperson Lofgren, Ranking Member Davis, and 
members of the Committee, thank you for the opportunity to 
testify before you today.
    I am Lisa Sasaki, and I have the honor of serving as the 
director of the Smithsonian Asian Pacific American Center since 
2016. Prior to joining the Smithsonian Institution, I spent 
over 20 years working in the museum field, specifically in 
community-based museums like the Oakland Museum of California, 
and the Japanese American National Museum.
    It is my great privilege to work with the talented team of 
curators, programmers, and professionals to highlight the 
stories of what is currently the fastest-growing racial group 
in America, an estimated 20 million Asian Pacific Americans and 
their communities located across the mainland United States and 
the Pacific.
    The Smithsonian Asian Pacific American Center was 
established in 1997 as a mission-critical Pan-institutional 
initiative to further the inclusion and representation of Asian 
Pacific Americans across Smithsonian exhibitions, collections, 
programs, and research. In its early years, the center produced 
numerous temporary and traveling exhibitions and hosted notable 
Asian Pacific American speakers, artists, and performers here 
in Washington, D.C.
    Today, the Center has expanded to also present digital 
projects, community--excuse me--community-based public 
programs, and educational resources that bring Asian Pacific 
American art, history, and culture to a global audience. The 
Center acts as a respected convener and cultural laboratory 
working in close partnership with community organizations, 
scholars, artists, and nationally-recognized institutions, such 
as The Library of Congress and The Kennedy Center and other 
Smithsonian units.
    The Center also administers the Smithsonian Asian Pacific 
American initiatives pool, federally appropriated funds that 
support projects from across the Smithsonian's 19 museums and 9 
research centers that focus on contributions and experiences of 
Asian Pacific Americans through research, acquisitions, 
programs, exhibitions, new media, publications, and educational 
activities. Since its creation 4 years ago, this pool has 
helped to support 49 projects in 16 different Smithsonian 
units, including the creation of the first ever curator of 
Asian Pacific American history position at the National Museum 
of American History.
    I appreciate the opportunity to testify before you today on 
H.R. 4132, a bill to establish a commission to study the 
potential creation of a National Museum of Asian Pacific 
American History and Culture. If Congress deems it in the 
public interest to move forward with the creation of the 
commission, the Smithsonian and I stand ready to serve as 
content experts should the bill pass into public law.
    In the meanwhile, the center will continue to advance its 
mandate to increase Asian Pacific American content and focus at 
the Smithsonian Institution and around the country. 
Specifically, we have recently launched a comprehensive 
campaign designed to do the following.
    One, create a series of national collecting initiatives 
with Smithsonian museums to preserve Asian American Pacific 
stories digitally and through the collections of object, art, 
and archives.
    Two, increase opportunities for Asian Pacific American 
students and museum professionals within the Smithsonian, 
helping to create the next generation of scholars, curators, 
and leaders.
    And, three, create the first dedicated Asian Pacific 
American exhibition gallery in Washington, D.C., within the 
Smithsonian.
    I also wanted to now say a few words about our sister 
program, the Smithsonian Latino Center, which is directed by my 
colleague, Eduardo Daz. Eduardo had planned on testifying 
before this Committee today, but was unable to, unfortunately, 
due to a death in his family. Fortunately, his written 
testimony is included for the record of this Committee hearing.
    The Latino Center was created in 1997 to promote Latino 
presence within the Smithsonian. The center works 
collaboratively with the Institution's museum research centers, 
record label, and traveling exhibition service, ensuring that 
the contributions of the Latino community in helping build this 
country and shape our national culture are explored, presented, 
celebrated, and preserved.
    The Center supports research, exhibition collections, 
public and education programs, and digital outreach about the 
U.S. Latino experience, as well as a range of professional 
development programs in history, arts, culture, and the 
sciences.
    Currently, the center is preparing to unveil the first ever 
Latino gallery on The National Mall, the Molina Family Latino 
Gallery, which will open at the National Museum of American 
History in spring 2021.
    I am proud that The Latino Center is making great strides 
to increase the visibility of Latino populations and their rich 
and culturally diverse stories at the Smithsonian. I am equally 
proud to be working at the Smithsonian Asian Pacific American 
Center to ensure that Asian Pacific Americans are also 
recognized.
    I would like to thank the Committee for giving me this 
opportunity to testify and for your support and interest in the 
work of the Smithsonian. I am happy to answer any questions 
that you might have.
    [The statement of Ms. Sasaki follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. Thank you very much.
    And we will turn now, Dr. Petersen, to you.

                   STATEMENT OF ERIC PETERSEN

    Mr. Petersen. Chairperson Lofgren, Ranking Member Davis, 
and members of the Committee, thank you for your invitation to 
testify before you today.
    I have been asked to provide an overview of some of the 
matters Congress might encounter in the potential consideration 
and development of new Smithsonian museums, and this comes at a 
time of great interest in these museums in Congress and among 
museum advocates.
    In addition to the potential projects under consideration 
today, H.R. 1980, as reported by this Committee, would create a 
women's history museum in the Smithsonian. It is unclear 
whether Congress has ever considered the potential development 
of three substantial museum projects essentially at the same 
time.
    Questions that Congress and this Committee might consider 
regarding museum development range from big picture 
philosophical considerations to practical and detailed 
operational concerns, some of which we have heard today.
    In this oral statement, I will focus on three areas of 
concern, including the role and availability of private 
entities to support museum initiatives; the capacity of the 
Smithsonian to engage major new museum initiatives, along with 
a number of current institutional demands; and, naturally, the 
potential costs of establishing and operating new museums.
    With regard to private interest in museums, the development 
of the most recent Smithsonian museums, the National Museum of 
African American History and Culture and the National Museum of 
the American Indian, suggests that proposals for museums 
typically grow from initial efforts of private individuals or 
groups. In considering these proposals, there appears to be a 
series of around 10 events involving the efforts of supporters, 
Congress, and the Smithsonian. Private advocates appear to 
engage in everything from the first idea for a museum to the 
grand opening, and this can take a long time.
    A hundred and eight years elapsed between the time when 
George Heye began his collection and when the American Indian 
Museum first opened its doors. Similarly, the African American 
History and Culture Museum opened 101 years after the first 
efforts of African American Civil War veterans to establish and 
build a museum or monument.
    In considering the development of new museums, Congress 
might consider the commitment and capacity of advocates for 
various museums to work independently and effectively in 
support of that museum's establishment.
    Within the Smithsonian, recent and current leaders have 
taken an arguably discouraging approach to the creation of new 
museums and have instead advocated in favor of other 
priorities. The potential need for the Smithsonian to execute 
the development of as many as three new national museums might 
raise concerns about its capacity to effectively address 
ongoing operations, resolve longstanding maintenance concerns 
for existing facilities, in addition to consideration of the 
museums.
    In addition to these concerns, the extent to which the 
Smithsonian Institution has or can develop the human capital 
capacity to integrate new museums into its portfolio has not 
been assessed in a publicly available manner. Any of these 
concerns arguably might inform an assessment of the 
Smithsonian's ability to successfully develop the new museums 
under consideration.
    Finally, if the national American Latino, Asian Pacific 
American history and culture, or women's history museums are 
created by Congress, as we have discussed this morning, and 
they are funded in the same manner as other SI museums, they 
could represent a significant enduring increase in the 
appropriations provided for Smithsonian operations.
    In advance of a detailed project, it can be difficult to 
estimate costs for new museums, because those costs are going 
to vary according to the scope of the new museum's mandate, 
facility size, funding mechanisms, and other factors.
    Some potential guidance on costs, however, may be drawn 
from the costs of building and operational expenditures of the 
American Indian and African American History and Culture 
Museums.
    For the first 15 years those museums were in operation, and 
including the funding for the Federal components of museum 
planning, design, construction, and exhibit development, 
appropriations for the American Indian Museum were at least 
$564.9 million, and for the African American History and 
Culture Museum at least $644 million. These figures reflect 
adjustment for inflation to 2019 dollars.
    Finally, I want to acknowledge the assistance of some very 
good CRS colleagues, Dr. Jacob Straus, who is behind me today, 
and some wonderful librarians who helped me pull together this 
testimony.
    That is all I have for now. I appreciate your inviting me 
to testify. And I look forward to any questions you might have.
    [The statement of Mr. Petersen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. Thank you very much. And thanks to all the 
witnesses.
    I will turn now to the Ranking Member, Mr. Davis, for any 
questions he may have.
    Mr. Davis of Illinois. Thank you, Madam Chair.
    And thank you to all the witnesses. Great to hear your 
opening testimony, and look forward to working with you as 
these projects move forward.
    My first question is for Mr. Munoz.
    The Commission considered several sites as possible 
locations. One is the Capitol site on the Senate side of the 
Capitol, which is under the jurisdiction of the architect of 
the Capitol. Was the architect consulted on the location? And 
what input may they have provided?
    Mr. Munoz. Yes, they were consulted on the potential 
location of the museum on that site. It is the one site on the 
Mall that is not under the jurisdiction of the National Park 
Service.
    So, during the time of consideration of all nine sites, we 
worked through the various organizations that have jurisdiction 
over The National Mall. For example, the National Capital 
Planning Commission. Everyone weighed in on that process.
    In fact, at the end of the day, through all of the planning 
processes that have considered and continued to evolve what 
should happen on The National Mall as far back as Pierre 
L'Enfant's plan for the city of Washington, D.C., it has always 
been thought that there would be a significant civic building 
on that side. It is currently a parking lot.
    And so, at the end of the day, the National Capital 
Planning Commission said: We believe that some consideration of 
the rethinking of the entire site, including the Reflecting 
Pool, could be enhanced by the location of a building such as a 
museum, like the National Latino Museum, on that side.
    Mr. Davis of Illinois. Okay. You mentioned the 
collaboration. The Park Service obviously was included in this. 
Did they express any concerns about that location at all?
    Mr. Munoz. There is always--I think there are lots of 
concerns about the complexity of The Mall. So in every single 
site that was considered, there were pros and there were cons. 
The Secretary spoke to one earlier. I might disagree with him 
on that one, but there are always pros and cons.
    Mr. Davis of Illinois. Okay. Thank you very much. Thanks 
for your testimony.
    Mr. Petersen, thank you for being here as one of our 
witnesses. I forgot to look at your bio again beforehand and 
realize you didn't go to the University of Illinois. You went 
to some institution in Ohio that many people haven't heard of.
    Mr. Petersen. Actually, I teach there.
    Mr. Davis of Illinois. We will still consider you somewhat 
of an expert today on CRS.
    Mr. Petersen. Well, thank you.
    Mr. Davis of Illinois. What are the elements that needed to 
be considered in order to have a holistic estimate of the 
financial commitment any new Smithsonian museum would require?
    Mr. Petersen. Well, as Dr. Bunch has suggested, there are a 
number of pieces that we need to think about, from the initial 
idea through the expenses for a commission of consideration, to 
the unknowable--fully unknowable when we begin costs of 
construction and then operations.
    It is very difficult to tie down a specific number ahead of 
time. I know that some entities have tried, and, inevitably, 
they wind up lower than what the actual costs are. But, 
fundamentally, you are looking at paying for the idea stage, 
paying for the site planning and construction stage, and then 
paying for the ongoing operations.
    Mr. Davis of Illinois. We have had previous museums come in 
at certain estimates and then end up substantially higher, 
sometimes upwards of 50-percent increases.
    Is there something that stands out as a part of those 
projects that you can't plan for a 50-percent increase? What is 
it that we ought to, as a Committee, come together and be 
concerned about to ensure that the estimates reflect the actual 
costs? And what can we do to help ensure that on the front end?
    Mr. Petersen. Arguably, there is a degree of uncertainty 
that you are not going to overcome at the front end.
    Mr. Davis of Illinois. Should that be at a 50-percent 
degree of uncertainty, or do you think we can minimize that?
    Mr. Petersen. I think that is a question for analyzing past 
estimates and then finding out final costs. So, for example, in 
the case of the African American Museum, nobody really 
anticipated the challenges the creek running under The Mall 
would pose and the cost increases of having to build a vastly 
more reinforced foundation.
    In the case of the American Indian Museum, it was a strange 
circumstance in that you had a substantial renovation of a 
museum space in New York, a new building in Suitland for 
collection storage, and The Mall flagship facility.
    How do you get there? Again, I would prefer to look at the 
models of expenditures and then perhaps suggest an idea of what 
the potential overage could be.
    Mr. Davis of Illinois. Great.
    Thank you, to each of you. I look forward to working with 
you as this process moves forward.
    I yield back, Madam Chair.
    The Chairperson. Thank you.
    The gentleman from California, Mr. Aguilar.
    Mr. Aguilar. Thank you, Madam Chair.
    Mr. Munoz, the Latino population in the United States is 
projected to grow to reach over 100 million people in less than 
50 years. H.R. 2420, the National Museum of the American Latino 
Act, has strong bipartisan support. The previous panel of 
Members, Mr. Serrano and Mr. Hurd, also another south Texan--we 
don't hold that against him.
    But can you explain to the public and to us how 
establishing this national museum will expand the Smithsonian's 
representation for Latino voices throughout our country and 
community?
    Mr. Munoz. Well, I would look at it from three 
perspectives.
    First of all, the wisdom of the Congress many years ago to 
establish Latino pool funds has seeded the development of this 
museum over the course of the last three decades. So there are 
currently curators that are established in each of these 
museums who are making sure that the American story that is 
told in those museums is more complete.
    That was the first step in establishing the scholarship 
that the Secretary talked about to ultimately build let's call 
it a major portal on The Mall in Washington, D.C.
    As that work progressed, everybody agreed that if you have 
the fastest-growing demographic group in the country, as you 
said, expected to be 100 million people, then it is in the best 
interests of the country for them to understand who they are as 
Americans.
    And that can't really be told without--let's call it a 
building--a building and a digital architecture and all of the 
scholarship that is associated with that.
    You know, I had an interesting experience a few years ago 
when I was vice chairman of the Smithsonian National Board. I 
was asked to represent the Smithsonian at a meeting of the 
Ministries of Culture. Of all of the countries in the Americas, 
we are the only country that doesn't have one.
    And so, when you think about the Smithsonian and all of its 
organic glory as a place of scientific research and culture and 
art, it is really important for this community to see itself as 
a part of that American story, and it is important for other 
people to see it, too.
    You know, last night I was watching, and there was a lot of 
discussion of pilgrims, but not of the true founding of the 
country, of the intersection that had happened between the 
indigenous people and the Spaniards, which predates that.
    And so, until that story is told, maybe because the country 
has this notion of purity, it won't really understand itself as 
a mixture, a great mixture, melting pot of people. So I think 
that the time is now to do this.
    I don't think there is a better team to do it than when 
Lonnie Bunch is the Secretary of the Smithsonian, because he 
has actually done it. And I am sitting here in this room 
thinking: How wonderful would it be to have a Secretary who 
really understands the process to watch over this, and this, 
and the women's museum?
    Mr. Aguilar. Yes, I appreciate it.
    And can you talk to us a little bit about how your 
analysis, how the study reviewed the site locations as well--
Mr. Davis talked a little bit about that--but the importance of 
it being on The Mall, but also some of the concerns associated 
with some of the other sites as well and why this might be the 
most appropriate use, this Mall site that was identified?
    Mr. Munoz. So there were nine, and not all of them were on 
The Mall in the purest possible thinking. But there has been an 
evolution in the thinking of The Mall. Development never stops, 
right? The city is evolving. And so there was discussion about 
what might constitute The Mall if you weren't being traditional 
thinkers. There were very few.
    I mean, there are many people, Save Our Mall thinks that 
there are too many buildings on The Mall already. The National 
Park Service was completing a study about what the use of The 
Mall should be in the future. This was on the heels of, like I 
said, L'Enfant's plan, and all of the pertinent organizations 
with jurisdiction met with us and weighed in on the cost, on 
issues such as security, on what unforeseen conditions--there 
is a creek running under The Mall--of those things. And the 
commission attempted to balance all of those.
    There were two overriding considerations. One was location. 
What had the possibility of fitting into the ecosystem of 
institutions on The Mall so that it had the broadest exposure 
possible to the American people?
    If you were going to choose that, then you might choose 
what came in second, let's call it, which was the Arts and 
Industries Building. But the Arts and Industries Building is a 
historic building, it has been around for a long time, and it 
probably isn't suitable for a 21st century collecting museum, 
but it has a great location next to the Castle.
    The second site, which became the preferred site, and, 
quite honestly, the site that had a great deal of consideration 
given to it through these various plans and the National 
Capital Planning Commission, was the Capitol site. And it, 
because of where it is, because it has always been anticipated 
that there would be a major civic building there, because it is 
currently a parking lot, because it would complete, if you are 
staring at the Capitol and you looked at the Botanical Garden 
here and you looked on this side, if you built a building, 
maybe it wouldn't be a 500,000-square-foot building, but it 
would be a building that was in harmony with the Botanical 
Gardens, well, that was a wonderful thing and the place where 
the Inaugural parade starts.
    But there were considerations there, too, which is 
security. It is very close to the Capitol. We thought that was 
a plus.
    So at the end of the day what I want the members of the 
Committee to understand was that there is no perfect site. 
Everybody was unanimous about the need for this to be on The 
Mall proper. It was a very careful consideration. And at least 
at that time, knowing that there would have to be further site 
selection considerations, the site that made the most sense was 
the Capitol site.
    Mr. Aguilar. Thank you, Mr. Munoz. Thanks for your service 
as well.
    Thank you, Madam Chair.
    The Chairperson. Thank you very much.
    I will just close out by saying how helpful this hearing 
has been to me to identify issues.
    Dr. Petersen, certainly we want to go into this with our 
eyes wide open, what the issues are, how to cope with them, 
because those are challenges, but not impediments if we plan 
for them properly.
    In terms of the timing, I am hoping we can move forward on 
this. Certainly the idea that we wait 100 years for this is 
completely unacceptable. And two of our three congressional 
witnesses are retiring at the end of this Congress. They both 
said they hoped we could act before they do. That seems like a 
reasonable request, and I am hoping that we can proceed.
    Certainly the Latino Museum has already done its 
commission. We are in a position to move forward. And, as 
Secretary Bunch has said, you never get to the end if you don't 
take the first step, and that is really where we are.
    In terms of siting, as I was listening to you, I was 
remembering back to the building of the World War II Memorial, 
and there was a lot of dissension and fighting about that, and 
there was a strong sense that we should move forward.
    And I am a huge environmentalist, but there was going to be 
environmental delays that went on and on and on. And Senator 
Bob Dole and I--an unlikely couple--decided to go after this. 
And I remember a press conference that Senator Dole and I had 
about this, and he said that if we wait until all the World War 
II vets are gone, that will not be acceptable.
    Now, obviously the Latino Americans and Asian Americans are 
not going anywhere, but we have a moment in time here with 
Secretary Bunch, who knows how to do this, the excitement in 
the country and of the Congress to proceed. We should take 
advantage of this moment to move forward.
    I was thinking about going to New Mexico years ago and 
meeting with various legislators whose families have been in 
New Mexico for like 300 years. My grandfather came here right 
just before World War I. Their families extend centuries, and, 
yet, their story is not fully told. What a great opportunity it 
is to build the full story of America for all of us to have 
pride in.
    So I am hoping to move that forward.
    I do have a question really for the Asian Pacific Islander 
Museum, because this is a commission: How we are going to 
structure this to fully capture the great diversity of the 
Asian Pacific Islander Museum.
    And I am not critical, because it is the pattern, the 
members of the commission is two members from the Majority 
Leader of the Senate, two from the Speaker, two from the 
Minority leaders of the House and the Senate. It is a small 
commission.
    And yet we have Japanese Americans, Chinese Americans. We 
have Indo Americans, who are also very diverse, Sikhs, Hindus, 
Baha'is, Muslims. We have Tongans, Nepalese. I mean, it just 
goes on and on, such a diverse--Vietnamese Americans--such a 
diverse Asian community.
    How will we approach capturing the diversity that has so 
blessed our country?
    Ms. Sasaki. Would you like to go? Go first.
    Ms. Lew-Williams. I would say that the diversity of the 
community is one of the reasons that we need a standalone 
museum to try to capture what is an incredibly diverse and 
distinct many histories, many stories of many people.
    I would say that, as a historian, as an academic, that 
academics have been working on this project for a long time. As 
a field, Asian American studies is about 50 years old, and the 
study of Asian immigrants and Asian and Pacific Islanders goes 
back before that.
    So I think that we have the academic resources to think 
about this community as a community together, perhaps, and Ms. 
Sasaki can talk about the community and how the community can 
come together.
    I think that the fact that it is so many stories means that 
just the building, just having a commission and then imagining 
such a bringing together of these many histories, would be a 
productive thing for the Asian Pacific American community to 
imagine how we tell this story that is so often overlooked.
    The Chairperson. Do you have anything to add?
    Ms. Sasaki. Yes. Thank you so much for bringing this up, 
because I think that this is an opportunity for us to recognize 
that the commission, should it go forward, has a very important 
job to do, which is call together as many experts, scholars, 
and community members from across all of these different 
communities in order to be able to talk about the impacts of 
their history, their stories, the opportunities that we have to 
share about this larger American story that we all contribute 
to.
    And I think that with the recognition of that from the very 
beginning about how complex this endeavor will be, given the 
diversity of all of the communities that fall underneath the 
umbrella of Asian Pacific America, that we have a great 
opportunity to bring together amazing scholars, like my 
colleague here, who can help us better unpack and talk about 
how we are going to be able to represent those stories in what 
will ultimately never be enough space.
    The Chairperson. Well, I am going to thank each of you for 
being here today as witnesses. It was very important to hear 
from you. The Committee may have additional questions, which we 
will send to you. If so, and if we do that, we would ask that 
you respond in writing as quickly as you can.
    I am just thinking we are really the only country in the 
world that is completely made up of people from someplace else, 
other than our Native Americans. And it is the kind of country, 
it is not where you are from, it is where you are going that 
matters. But you always have to remember where you are from as 
well.
    Such a rich opportunity we have here to further strengthen 
America through understanding all of the people who are here 
and what makes us great.
    Thank you very much, and we are now adjourned.
    [Whereupon, at 11:59 a.m., the Committee was adjourned.]

                       [all]
</pre></body></html>
